11/28/07        10:24 FAX 301 903 4656              CAPITAL REGION                                         [a 002




DOE F 1325.8
(08-93)
United States Government                                                            Department of Energy


Memorandum                                                                      OFFICE OF INSPECTOR GENERAL


        DATE:     November 28, 2007
    REPLY TO
     ATTN OF:     IG-34 (A07TG029)                                        . Audit Report No.: OAS-L-08-02
    SUBJECT:      Report on "Department's Implementation of the Strateg:ic Integrated Procurement
                  Enterprise System - Overall Project Planning"
          TO:     Chief Financial Officer, CF-1


                  INTRODUCTION AND OBJECTIVE

                  On September 28, 2007, we issued a report on the Department's Implementation of the
                  StrategicIntegratedProcurementEnterpriseSystem - TransitionPlanning,Interfaces,
                  and Testing (OAS-L-07-26). This was the first in a series of reports to address the
                  Department of Energy's (Department) initiative and to determine whether ongoing efforts
                  in the areas of transition planning, interfaces, and testing; overall project planning; and
                  security were satisfying Federal and Department system development requirements,
                  goals, and mission needs.

                  In our previous report, we observed that transition planning, interfaces, and testing for the
                  Strategic Integrated Procurement Enterprise System (STRIPES) largely satisfied Federal
                  and Department system development requirements, goals, and mission needs. However,
                  we noted several opportunities to improve the development process and increase the
                  likelihood that the effort will ultimately be successful. We made three suggestions
                  designed to improve transition planning, encourage resolution of a vendor data
                  integration issue, and ensure that future testing of components adheres to established
                  schedules. Management concurred withfour suggestions and agreed to take action to
                  resolve issues discussed in our first report. This report, the second in the series, focuses
                  on whether ongoing overall project planning efforts are satisfying Federal and
                  Department system development requirements, goals, and mission needs.

                  CONCLUSION AND OBSERVATIONS

                  Consistent with our initial report, we noted that, for the most part, overall project
                  planning for STRIPES satisfied Federal and Department system development
                  requirements, goals, and mission needs. For instance, a risk management plan was
                  developed for STRIPES that addressed project risks and. articulated resolution paths.
                  Planning and implementation of STRIPES included a re-assessment of existing
                  procurement processes and an adaptation of these processes to use a commercial
11/28/07   10:24 FAX 301 903 4656               CAPITAL REGION                                           ~2003




             off-the-shelf product. The value of work accomplished was also being tracked for the
             project. In addition, a training strategy had been designed and incorporated into the
             acceptance test phase, which is currently underway. A requirements analysis had also
             been performed which outlined the Department's needs for a procurement system. In
             particular, the analysis described the detailed application and system functions that
             STRIPES had to have to be able to perform and provided a set of requirements or
             specifications against which its performance may be measured. However, our review
             identified several opportunities to improve the planning and implementation processes.

                                                    Project Planning

             A single comprehensive project execution plan had not been developed for managing
             STRIPES implementation activities. Although most of the major components that should
             be included in such a plan had been properly developed., we noted that their usefulness in
             implementing the project could be enhanced by consolidating them. As discussed in
             DOE 0 413.3A, a consolidated plan is valuable because it provides a framework for
             identifying key components and their status. Such a pli• could aid management in
             evaluating the project and, ultimately, determining when all planned benefits are
             achieved.

                                                  Duplicative Systems

              While procurement systems that will become duplicative following implementation had
              been identified by the STRIPES team, details relating to their ultimate termination were
              not always contained in planning documents. Consistent with the objective of the
              initiative, the STRIPES team, as part of the analysis of the Department's current
              information technology environment, concluded that about 30 systems could be replaced
              by STRIPES. However, planning documents provided insufficient details, such as a
              schedule or organizational commitment to terminate duplicative procurement systems
              once STRIPES becomes operational. The Federal Project Director stated that by re-
              validating functional requirements, Department organizations had indirectly agreed to
              turn off their systems when STRIPES becomes operational. However, a project official
              indicated that assistance may be needed from the Chief Information Officer (CIO) to
              ensure that this is accomplished since direction to terminate operation cannot be given for
               systems under another organization's control.

                                                         Critical Path

              The STRIPES critical path was missing essential elements and had not been formally
              approved. The establishment and maintenance of a critical path provides a tool for
              assessing what tasks must be carried out, identifies parallel activity, establishes the
              shortest time in which a project can be completed, and determines resources needed to
              execute a project. In addition, the tool is useful for assessing the sequence of activities,
              scheduling and timing, prioritizing tasks, and determining the most efficient way to
              shorten time on urgent projects. According to the Department's project management



                                                     2
11/28/07   10:24 FAX 301 903 4656              CAPITAL REGION                                              004




             directives, critical path design is an activity that should be considered in developing and
             preparing a project execution plan and must be developed and maintained for a project.
             We noted thatthe critical path schedule for STRIPES was missing essential elements -
             such as the identification of where parallel activity could be performed and the shortest
             time in which the project can be completed - and remained in draft even though the
             project commenced three years ago. The STRIPES Federal Project Director
             acknowledged that the STRIPES critical path was a draft product and did not contain
             enough detail.

             POTENTIAL IMPACTS

             One of the major objectives of project officials in requesting the audit was to identify any
             STRIPES risks or issues that could impact the audit of fnancial statements. Our work up
             to this point to evaluate the STRIPES system development has not identified any
             potential issues which would impact future audits of the Department's financial
             statements. The issues discussed above related to project planning could, however,
             potentially impact STRIPES development or the efficiency of the Department's
             procurement operations.        -.

              SUGGESTED ACTIONS

              To help ensure an efficient, timely, and orderly implementation; we suggest that the
              Chief Financial Officer (CFO) direct the STRIPES project management team to:

                 1. Consolidate detailed plans into a comprehensive execution plan with an overall
                    index to provide a framework for identifying all of the key components or
                    detailed plans and their current status;

                 2. Revise the STRIPES draft critical path schedule to include essential elements and
                    formally approve it for use on the project; and,

                 3. Expand planning documents to include details regarding which field and
                    headquarters procurement systems will become duplicative as STRIPES comes
                    online and the timeframe in which this will occur.

              We also suggest that the CFO work with the CIO and other Program Offices to ensure
              timely termination of the operation of duplicative procurement systems as soon as
              possible after the implementation of STRIPES.

              MANAGEMENT REACTION

              Management agreed that consolidating the planning and project documents would be
              useful in the future and agreed with the suggestion to revise the critical path. They have
              instructed their subcontractor to deliver the critical path in a more useful format.
              Additionally, based on previously developed information, they will ensure full
              identification of potentially duplicative systems and recommend that those systems be


                                                    3
11/28/07   10:25 FAX 301 903 4656             CAPITAL REGION                                        ~005




             turned off. However, since the Office of the CFO does not own or fund them, additional
             Department elements, including the Office of the CIO, will have to participate in the joint
             effort.

             Since no formal recommendations are being made in this report, a formal response is not
             required. We appreciate the cooperation of your stf during this phase of the audit.




                                                   Rickey . Hass
                                                   Assistant Inspector General
                                                     for Environment, Science, and Corporate Audits
                                                   Office of Audit Services
                                                   Office of Inspector General

              Attachment

              cc:   Director, Office of Management, MA-1
                    Chief Information Officer, IM-1
                    Chief of Staff
                    Team Leader, Audit Liaison, CF-1.2
                    Audit Liaison, IM-10
                    Audit Liaison, MA-40




                                                   4
11/28/07   10:25 FAX 301 903 4656             CAPITAL REGION                  .                     l006


                                                                                           Attachment


                                         SCOPE AND METHODOLOGY


              SCOPE AND METHODOLOGY

              Fieldwork for the Department of Energy's (Department) Implementation of the Strategic
              Integrated Procurement Enterprise System (STRIPES) - Overall Project Planning was
              performed between July 2007 and November 2007 at Iepartment Headquarters in
              Germantown, Maryland. To accomplish the audit objective, we:

                   *    Reviewed applicable laws, regulations, and guidance pertaining to information
                        technology, financial management systems, and system development and
                        implementation.

                    * Reviewed relevant reports issued by the Office of Inspector General and the
                      Government Accountability Office;

                    * Reviewed the Government Performanceand Results Act of 1993 and
                      determined if performance measures had been established for STRIPES; and,

                    *   Held discussions with Department officials and personnel and obtained and
                        reviewed relevant documentation relating to development and implementation.

              The audit was performed in accordance with generally accepted Government auditing
              standards for performance audits and included tests of internal controls and compliance
              with laws and regulations to the extent necessary to satisfy the audit objective.
              Accordingly, we assessed significant internal controls and performance measures under
              the Government Performanceand Results Act of 1993 regarding implementation of
              STRIPES and found that performance measures, objectives, and goals did exist relating
              to the effort. Because our review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of our audit. We did not
              rely on computer-processed data to accomplish our audit objective.




                                                    5
